                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: A05090065                                                       11          Page 1 of 1



                 The PI and Co-PISon a rejected proposal wrote to the program officer to complain
         that the reviewers had not reviewed their proposal fairly or carefully. Rather than seek formal
         reconsideration after the program officer responded, the PI and Co-PISwrote to the National
         Science Board (NSB). In addition to the complaints they raised with the program officer, in
         their letter to the NSB they also said:

                   We feel that the misrepresentation of the contents of the proposal by
                   Reviewer 1,who included inaccurate and fabricated comments, could well be
                   classified as Scientific Misconduct as defined by the U.S. government.

                We reviewed each of the comments made by Reviewer 1 that the PI and Co-PIS
         identified, and found that all were reasonable. Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
